No. 20-128
In the

Supreme Court of the United States
BIG PORT SERVICE DMCC,
Petitioner,
v.
CHINA SHIPPING CONTAINER LINES CO. LTD.,
Respondent.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Second Circuit

BRIEF IN OPPOSITION
Gina M. Venezia
Counsel of Record
Michael J. Dehart
Freehill Hogan & Mahar, LLP
80 Pine St.
New York, NY 10005
(212) 425-1900
venezia@freehill.com
Counsel for Respondent

297858

A
(800) 274-3321 • (800) 359-6859

i
QUESTIONS PRESENTED
Arbitration is unquestionably a creature of contract. A
party cannot be compelled to arbitrate disputes pursuant
to a non-existent arbitration agreement. The courts in
this case have already conclusively established there is
no contract between the parties much less an arbitration
agreement. The Second Circuit thus affirmed the district
court’s declaratory judgment in favor of Respondent
CSCL which judgment held there is no agreement to
arbitrate between the parties. (App.9 & 30.) Petitioner
BPS does not, indeed cannot, challenge before this Court
the grant of declaratory relief. As a result, there is no
scenario by which BPS can ever pursue arbitration against
Respondent CSCL. BPS only seeks to challenge the
injunctive relief issued by the district court and affirmed
by the Second Circuit. The injunction was necessitated
because, notwithstanding the lack of an arbitration
agreement, BPS unabashedly kept trying to progress the
arbitral proceedings. CSCL was not “seeking [to] avoid
arbitration” (Pet. i.). There was no basis for arbitration
in the first place.
The question presented is:
When there is no arbitration agreement between
the parties, should this Court issue an advisory opinion
on whether and if so under which authority federal
courts have the power to enjoin a party from wrongly
foisting arbitration on another pursuant to a nonexistent agreement, particularly when all circuits to
have addressed the issue in this context agree that such
injunctive power exists and when the existence or nonexistence of this injunctive power makes no difference to
the outcome to the present case since BPS cannot arbitrate
against CSCL regardless?

ii
RULE 29.6 DISCLOSURE
Respondent China Shipping Container Lines Co.,
Ltd. is now known as Cosco Shipping Development Co.
Ltd. Cosco Shipping Development Co. Ltd. is a Chinese
corporation and is listed on both the Hong Kong and
Shanghai stock exchanges. Its parent corporation, the
China Cosco Shipping Corporation Limited, holds 39.28%
of its shares. The parent corporation is not a publicly-held
company. No publicly-held company owns 10% or more of
these companies. Respondent shall be referred to herein
as “CSCL.”

iii
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . i
RULE 29.6 DISCLOSURE  . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . .  iii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . iv
STATUTORY PROVISIONS . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 1
REASONS FOR DENYING CERTIORARI  . . . . . . . 13
I.

The Federal Policy in Favor of Arbitration
is not Implicated. . . . . . . . . . . . . . . . . . . . . . . . . . 14

II. T he R esult BPS Seeks is I rrational ,
I llogica l , a nd C ontrav enes S upreme
Court Precedent . . . . . . . . . . . . . . . . . . . . . . . . . 16
III. BPS’ A ssertions of a Circuit Split are
a Pretext. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
IV. The Decision Below is Correct. . . . . . . . . . . . . 28
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

iv
TABLE OF CITED AUTHORITIES
Page
CASES
Anderson v. Beland (In re Am. Express Fin.
Advisors Sec. Litig.),
672 F.3d 113 (2d Cir. 2011) . . . . . . . . . . . . . . . . . . . . . 26
AT&T Broadband, LLC. v.
Int’l Broth. of Elec. Workers,
317 F.3d 758 (7th Cir. 2003) . . . . . . . . . . . . . . . . . . . . 25
AT&T Techs. v. Communs. Workers of Am.,
475 U.S. 643 (1986)  . . . . . . . . . . . . . . . . . . . . . 16, 19, 20
Bogen Communs., Inc. v.
Tri-Signal Integration, Inc.,
227 F. App’x 159 (3d Cir. 2007) . . . . . . . . . . . . . . . . . 18
Brock Indus. Servs., LLC v. Laborers’ Int’l
Union of N. Am. Constr. & Gen. Laborers
Local 100,
920 F.3d 513 (7th Cir. 2019)  . . . . . . . . . . . . . . . . . . . . 19
Cathcart Props. v. Terradon Corp.,
364 F. App’x 17 (4th Cir. 2010) . . . . . . . . . . . . . . . . . . 18
China Shipping Container Lines Co. v.
Big Port Serv. DMCC,
2020 U.S. Dist. LEXIS 150137
(S.D.N.Y. Aug. 19, 2020) . . . . . . . . . . . . . . . . . . . .  11, 19

v
Cited Authorities
Page
Dean Witter Reynolds Inc. v. Byrd,
470 U.S. 213 (1985)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
EEOC v. Waffle House, Inc.,
534 U.S. 279 (2002) . . . . . . . . . . . . . . . . . .  14, 15, 16, 20
Ewart v. Y & A Grp.
(In re Y & A Grp. Sec. Litig.),
38 F.3d 380 (8th Cir. 1994) . . . . . . . . . . . . . . . . . . . . . 24
Flast v. Cohen,
392 U.S. 83 (1968) . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
Garanti Finansal Kiralama A.S. v.
Aqua Marine & Trading Inc.,
697 F.3d 59 (2d Cir. 2012) . . . . . . . . . . . . . . . . . . . . . . 12
Hall St. Assocs., L.L.C. v. Mattel, Inc.,
552 U.S. 576 (2008) . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Hartley v. Stamford Towers Ltd. P’ship,
No. 92-16802, No. 92-56528,
1994 U.S. App. LEXIS 23543
(9th Cir. Aug. 26, 1994) . . . . . . . . . . . . . . . . . . . . . . . . 25
Hous. Ref., L.P. v. United Steel, Paper
& Forestry, Rubber, Mfg., Energy, Allied
Indus. & Serv. Workers Int’l Union,
765 F.3d 396 (5th Cir. 2014) . . . . . . . . . . . . . . . . . . . . 19

vi
Cited Authorities
Page
Howsam v. Dean Witter Reynolds,
537 U.S. 79 (2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Hull v. Norcom, Inc.,
750 F.2d 1547 (11th Cir. 1985)  . . . . . . . . . . . . . . . . . . 24
JPay, Inc. v. Kobel,
904 F.3d 923 (11th Cir. 2018) . . . . . . . . . . . . . . . . . . . 19
KenAmerican Res. v. Int’l Union, UMW,
99 F.3d 1161 (D.C. Cir. 1996) . . . . . . . . . . . . . . . . . . . 19
Klay v. United Healthgroup, Inc.,
376 F.3d 1092 (11th Cir. 2004)  . . . . . . . . . . . . 23, 24, 27
McCarthy v. Azure,
22 F.3d 351 (1st Cir. 1994)  . . . . . . . . . . . . . . . . . . . . . 15
Miller Brewing Co. v. Fort Worth Distrib. Co.,
781 F.2d 494 (5th Cir. 1986) . . . . . . . . . . . . . . . . . . . . 27
Mistretta v. United States,
488 U.S. 361 (1989)  . . . . . . . . . . . . . . . . . . . . . . . .  17, 18
Mitsubishi Motors Corp. v.
Soler Chrysler-Plymouth, Inc.,
473 U.S. 614 (1985)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Monisoff v. American Eagle Investments, Inc.,
927 F. Supp. 137 (S.D.N.Y.), aff’d,
104 F.3d 356 (2d Cir. 1996) . . . . . . . . . . . . . . . . . . . . . 15

vii
Cited Authorities
Page
Moses H. Cone Mem’l Hosp. v.
Mercury Constr. Corp.,
460 U.S. 1 (1983)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Painewebber Inc. v. Elahi,
87 F.3d 589 (1st Cir. 1996)  . . . . . . . . . . . . . . . . . . . . . 18
PaineWebber Inc. v. Hartmann,
921 F.2d 507 (3d Cir. 1990) . . . . . . . . . . . . . . . . . . 26, 27
Riley Mfg. Co. v. Anchor Glass Container Corp.,
157 F.3d 775 (10th Cir. 1998)  . . . . . . . . . . . . . . . . . . . 19
Sheet Metal Workers Int’l Asso., Local No. 359 v.
Ariz. Mech. & Stainless, Inc.,
863 F.2d 647 (9th Cir. 1988) . . . . . . . . . . . . . . . . . . . . 19
Silgan Containers Corp. v. Sheet Metal Workers
Int’l Ass’n, Local Union No. 2,
820 F.3d 366 (8th Cir. 2016) . . . . . . . . . . . . . . . . . . . . 19
Societe Generale de Surveillance, S.A. v.
Raytheon European Mgmt. & Sys. Co.,
643 F.2d 863 (1st Cir. 1981)  . . . . . . . . . . . . . . . . . . . . 26
Stone v. Doerge,
328 F.3d 343 (7th Cir. 2003) . . . . . . . . . . . . . . . . . . . . 15
Triangle Constr. & Maint. Corp. v.
Our V.I. Labor Union,
425 F.3d 938 (11th Cir. 2005) . . . . . . . . . . . . . . . . . . . 26

viii
Cited Authorities
Page
U. S. Titan, Inc. v. Guangzhou Zhen Hua
Shipping Co., Ltd.,
241 F.3d 135 (2d Cir. 2001) . . . . . . . . . . . . . . . . . . . . . 18
Vic Wertz Distrib. Co. v. Teamsters Local 1038,
Nat’l Conference of Brewery & Soft Drink
Workers,
898 F.2d 1136 (6th Cir. 1990) . . . . . . . . . . . . . . . . . . . 19
Volt Info. Scis. v. Bd. of Trs.,
489 U.S. 468 (1989) . . . . . . . . . . . . . . . . . . . . . 14, 21, 28
STATUTES AND OTHER AUTHORITIES
9 U.S.C. § 9  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
9 U.S.C. § 10  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
29 U.S.C. §§ 101-15 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

1
STATUTORY PROVISIONS
This case does not involve the application or
interpretation of any statutory provisions. The case
concerns the question of whether arbitration can be forced
on a party who is not bound to an arbitration agreement.
Resolution of that issue is clearly left to the district
courts for determination, as opposed to arbitrators, under
established precedent and involves application of settled
principles and doctrines. The suggestion by Petitioner Big
Port Services (“BPS”) that the case concerns application
of the All Writs Act or the scope of an existing arbitration
agreement is wrong.
STATEMENT OF THE CASE
1. The genesis of this case is a supply of marine fuel
(also known as bunkers) in November 2014 in Russia to
CSCL’s vessel, the M/V Xin Chang Shu (the “Vessel”).
There were at least four different contracts related to
the fuel supply, but none was between CSCL and BPS.
BPS’ presentation of the facts in its Petition is intended
to leave this Court with the misimpression that there was
a contract between BPS and CSCL with an arbitration
provision which the Second Circuit ignored. That is simply
not so.
BPS’ contract was with an entity which was never
a party to these proceedings – O.W. Bunker Far East
(Singapore) Pte. Ltd. (“OW Singapore”). The contractual
provisions quoted in BPS’ Petition are provisions in the
contract between BPS and OW Singapore, not any contract
with CSCL. The crux of BPS’ claim against CSCL and
the basis on which BPS sought to compel CSCL into

2
arbitration was the incorrect premise that OW Singapore
was CSCL’s agent. BPS has already extensively litigated
that premise and lost. As such, much of BPS’ recitation
in its Petition of the provisions in its contract with OW
Singapore can be ignored.
As conclusively established by the courts below and
in Singapore, there were four separate and distinct
contracts relative to the marine fuel supply. In Fall 2014,
CSCL contracted with O.W. Bunker China Ltd. (“OW
China”) to supply bunkers to the Vessel during a call at
Kavkaz, Russia. (A.153.) The contract did not mention
OW Singapore or BPS. (A.1488-89.) The innuendo in BPS’
Petition that CSCL knew of BPS’ involvement based on
the sales confirmation from OW China is false. (Pet. 3.)
BPS is not referenced anywhere in that sales confirmation.
(A.165-166.)
OW China then, on its own volition, entered into a
contract with OW Singapore. (A.154.) CSCL was not a
party to this subcontract and its terms were unknown to
CSCL. (A.154.)
To satisfy its contractual obligations to OW China,
OW Singapore allegedly entered into a contract with BPS.
(A.155.) According to BPS, this contract was governed by
BPS’ standard terms which called for arbitration in New
York. BPS then apparently subcontracted with another
entity to physically deliver the fuel. (A.156, A.1502.) This
entity is believed to be a Russian company known as TTK
whose name is identified on the fuel delivery receipt.
(A.1551.) BPS’ name is not mentioned anywhere on the
delivery receipt. (See A.1551.)

3
The fuel was delivered to the Vessel at Russia in
November 2014. TTK (not BPS) issued a bunker delivery
receipt to the Vessel confirming the delivery. The delivery
receipt makes no mention of BPS, its alleged contractual
terms, or an arbitration agreement. (A.192.) About a
week after the fuel was delivered, the OW entities filed
for bankruptcy.
2. Rather than seek payment in a bankruptcy
proceeding from the entity with which it contracted (OW
Singapore), BPS decided to pursue CSCL for payment.
BPS’ attack assumed fronts in the United States and
Singapore, all of which were premised on BPS’ false
position that OW Singapore was CSCL’s agent and
therefore bound CSCL to the contract between OW
Singapore and BPS.
On December 10, 2014, BPS arrested the Vessel in
Singapore (the “Singapore Action”). (A.528-29.) BPS
alleged that a direct contract existed between BPS and
CSCL. (Id.) BPS theorized that OW Singapore entered
into the contract with BPS as CSCL’s agent and on its
behalf. (A.530.) CSCL posted $2.6 million in security to
free the Vessel from BPS’ arrest. (A.529.) The security
was posted without prejudice to CSCL’s defenses to the
Singapore Action.
On December 14, 2014, BPS served CSCL with
a demand for arbitration pursuant to the New York
arbitration provision contained in BPS’ standard terms
and conditions. (A.29-37.) Just like it had alleged in
Singapore, BPS alleged in the arbitration demand that
CSCL was bound to the arbitration provision in the OW
Singapore-BPS contract based on the assertion that OW

4
Singapore served as CSCL’s agent. (Id.) CSCL steadfastly
rejected the attempt to force it to arbitration with BPS,
an entity with whom it had no contract or agreement.
(A.18-19.)
Meanwhile back in Singapore, BPS sought a stay of
the Singapore Action in favor of the New York arbitration
clause. (A.529; A.550-81.) CSCL challenged the requested
arbitration stay and also asked the Singapore Court
to strike out the Singapore Action as frivolous. (A.529;
A.582-83.) CSCL’s challenges were based on the lack of
any contract between it and BPS, and accordingly, the
absence of an arbitration agreement between the parties.
(A.530.) CSCL also sought an order setting aside the
Vessel’s arrest and awarding it damages as a result of
BPS’ wrongful arrest of the Vessel. (A.529; A.582-83.)
The core issue in all three applications filed in Singapore
revolved around whether a contract or arbitration
agreement existed between the parties. The Singapore
courts were thus poised to address whether there is an
arbitration agreement between CSCL and BPS.
Notwithstanding CSCL’s clear stance that there was
no agreement with BPS, BPS moved right along with its
improperly commenced arbitration back in the United
States. (A.42-80.) BPS relied on a self-appointing provision
of the Rules of the Society of Maritime Arbitrators
(whose Rules are referenced in BPS’ standard terms)
and appointed a full three-member panel over CSCL’s
objection. BPS made clear that it was moving full-steam
ahead with arbitration even though the existence of an
arbitration agreement between the parties was hotly
contested and had been placed before the Singapore
Court. (A.42-80.)

5
In the face of BPS’ actions in the United States, CSCL
had no choice and commenced proceedings in the federal
district court in New York. (A.13-27.) It was not clear the
Singapore court had the power to stop BPS’ actions in the
United States. CSCL thus requested two forms of relief
from the district court: (i) a declaratory judgment that
there was no agreement to arbitrate with BPS and (ii) an
injunction barring CSCL from proceeding with the New
York arbitration. Contemporaneously with its petition
filing, CSCL moved by order to show cause for a TRO and
preliminary injunction to stop BPS from moving forward
with its improperly convened panel of arbitrators. (A-9294.) BPS resisted that application, and its statements to
the district court in that opposition are telling.
In its discussion of the proceedings below, BPS neglects
to mention to this Court the critical representations BPS
made to the district court when it challenged CSCL’s
declaratory judgment petition. BPS argued to the district
court that “[t]he proper court venue for the dispute is
Singapore.” (A.267.) BPS explained to the district court
that the proceedings in Singapore were ongoing “including
on the issue of arbitration.” (A.263.) BPS also advocated
before the district court that a preliminary injunction was
not warranted because no harm would result to CSCL if
no injunction issued. BPS explained to the district court,
“[i]f the [Singapore] High Court decides that the dispute
is not arbitrable, CSCL will suffer no irreparable harm
because it will not be forced to arbitrate.” (A.268.)
Two days before the hearing on CSCL’s application
for a TRO, BPS requested a stay from the district court
pending a decision from the Singapore High Court.
(A.337.1-37.2.) BPS neglects this fact too in its Petition

6
– it was BPS which asked the district court to stay the
New York proceedings so that the issues relative to the
existence or non-existence of an arbitration agreement
could be litigated in Singapore. The district court
granted the stay relief requested by BPS. (A.369-370.)
The proceedings in the district court remained stayed for
nearly two years while the parties litigated the arbitral
and contract issues in Singapore.
BPS’ Petition to this Court purports to discuss the
developments in Singapore in detail but noticeably absent
from the record is any declaration or other evidence from
BPS’ counsel in those proceedings. In contrast, the record
contains a sworn declaration from CSCL’s Singapore
counsel who detailed the developments in Singapore
and provided the district court the relevant Singapore
submissions. (A.528-1477.) The record evidence and
testimony confirmed the following.
Back in Singapore, CSCL and BPS proceeded to
litigate before the Singapore High Court and Singapore
Court of Appeal (the highest court in Singapore). (A.52938.) The proceedings in Singapore were extensive with
the Singapore courts examining in great detail whether
there is a contract between CSCL and BPS. This issue
was examined at length in the context of the Singapore
courts’ evaluation of three different applications: (1) BPS’
application to stay the Singapore Action pending New York
arbitration (A.550-81), (2) CSCL’s application to strike
out the Singapore Action as frivolous (A.582-83), and (3)
CSCL’s application to set aside the Vessel arrest and to
award CSCL damages for wrongful arrest (A.582-83).

7
The issue of whether there was a contract between
BPS and CSCL was first presented to the Singapore High
Court and considered by the Assistant Registrar (similar
to a U.S. magistrate judge) when the three applications
were presented for examination. (A.529-30.) Both parties
submitted documentary and affidavit evidence, and both
parties attended hearings before the High Court where
their respective positions were advocated by counsel.
(A.530-31.) Detailed written submissions were made
by BPS in which it set forth the legal and factual bases
purportedly supporting its assertion that OW Singapore
contracted with BPS as CSCL’s agent. (A.531; A.584-629;
A.630-69.) Counsel for BPS also agreed at the hearings
that “the existence of an arbitration agreement depends
on the existence of [a] contract.” (A.631.) BPS consequently
conceded that if CSCL’s striking out application was
granted, it followed that there was no arbitration
agreement between BPS and CSCL (See A.530-31.)
BPS’ agency and contractual arguments were
rejected. A detailed decision was issued by the High
Court striking out BPS’ claims and refusing a stay in
favor of arbitration. (A.532; A.584-629.) The Singapore
High Court held, inter alia, that BPS’ claims were both
factually and legally unsustainable. (A.532; A.592-608.)
Under Singapore law, a claim is legally unsustainable if
it is clear as a matter of law that a party is not entitled
to the remedy it seeks even if that party were to succeed
in proving all the facts that he offers to prove. (A.531.) A
claim is factually unsustainable if it is possible to say with
confidence before trial that the factual basis for the claim
is entirely without substance, for example, if it is beyond
question that the statement of facts is contradicted by all
the documents or other material on which it is based. (Id.)

8
The High Court noted that BPS had failed to
demonstrate an arguable case that BPS and CSCL
were parties to a written contract or any New York
arbitration agreement. (A.532; A.608-09.) The High Court
determined that the marine fuel was sold pursuant to
a chain of separate sale and purchase agreements, and
that there was no evidence OW Singapore entered into a
contract with BPS on behalf of CSCL. (A.532; A.603-04.)
The High Court accordingly dismissed BPS’ application
to stay the Singapore Action in favor of arbitration in New
York and granted CSCL’s application to strike out the
action. (A.532; A.608-09.) The High Court declined to set
aside the warrant of arrest or award damages to CSCL
for wrongful arrest. (A.532; A.628-29.)
Both BPS and CSCL appealed respective aspects of
the High Court’s decision. The appeal was considered
by Justice Steven Chong of the Singapore High Court.
(A.533-34.) After hearings, Justice Chong affirmed the
High Court’s decision to strike out the proceedings and
refusal to stay the matter pending New York arbitration.
(A.534; A.757-789.) Justice Chong found the Registrar’s
decision to be “commendably clear” and held that the
evidence clearly established there was “no basis for the
court to find that the defendant was bound by the Contract
via the agency of OW Singapore.” (A.763-65.) BPS’ appeals
to the High Court were thus not successful.
Undeterred, BPS continued to litigate its claims in
Singapore. (A.536.) BPS applied to the High Court for
leave to appeal that court’s refusal to stay the action in
favor of New York arbitration and the court’s award of
damages to CSCL for wrongful vessel arrest. (A.536;
A.796-97.) The High Court dismissed this leave application
on May 18, 2016. (A.536; A.798-824.)

9
BPS then asked the Singapore Court of Appeal for
permission to appeal. (A.537; A.825-29.) The Singapore
Court of Appeal declined to grant BPS leave to appeal
the refusal to stay pending arbitration, but did grant BPS
leave to appeal the wrongful arrest damages decision.
(A.537; A.830-31; A.832-35.) As a result, the decision
by the Singapore courts that there was no agreement
between the parties and hence no basis to stay the
Singapore proceedings in favor of New York arbitration
became final. (A.537.)
BPS later sought permission from the Singapore
Court of Appeal to appeal out of time the High Court’s
decision striking out the vessel arrest action as frivolous.
(A.537; A.836-37.) BPS’ time to file an appeal from this
decision had expired. (A.537.) The application for an
extension was dismissed by the Court of Appeal on April 7,
2017. (A.537; A.840-41; A.842-44.) As a result, the decision
striking out BPS’ vessel arrest action as frivolous became
final and unappealable. (A.538.) At the hearing of April 7,
2017, the Court of Appeal stated:
In so far as BPS’ application for an extension
of time to appeal the Striking Out Order
is concerned, we find that the length of the
delay was substantial. We also find that no
satisfactory reasons were given for this delay.
Given these reasons, as viewed in the context
of the precise facts and circumstances of the
present case, we are of the view that this
application should be dismissed. We are further
of the view that, based on the way the case was
presented before us, the chances of the appeal
succeeding if time for appealing were extended

10
were low. However, we stress that our view in
this regard is not intended to be a comment
on the viability on [BPS]’s claim in arbitration
proceedings overseas.
(A.537, 840-41.)
As it did before the district court and the Second
Circuit, BPS tries to make much of this last sentence
suggesting this sentence detracts from the import of the
Singapore courts’ prior final decision affirming the lack
of an agreement between the parties. BPS has clearly
taken the sentence out of context. As testified by CSCL’s
Singapore counsel,
Whilst the Court of Appeal clarified that its
view was “not intended to be a comment on
the viability on [BPS]’s claim in arbitration
proceedings overseas” (Exhibit P26, page 2),
I should state this clarification was provided
after BPS’ Singapore counsel had informed
the Court of Appeal that there were overseas
arbitration proceedings already commenced by
BPS against CSCL. Thus, the Court of Appeal’s
clarification about the weakness of the merits of
BPS’ claim was not intended to trespass upon
such arbitration proceedings.
(A.538). In other words, the Singapore court left for the
U.S. bodies the determination of what impact, if any, the
rulings in Singapore might have. This is precisely what
the parties had envisioned when the New York district
court stayed the case before it pending the outcome in
Singapore.

11
3. Given the finality of the Singapore courts’
decisions, the district court lifted the stay of the New
York proceedings. The district court invited submissions
from BPS and CSCL to address, inter alia, the petition
for declaratory and injunctive relief and CSCL’s request
that the Singapore decision be recognized and enforced.
The briefs also addressed BPS’ subject matter jurisdiction
arguments. (As an aside, the arguments lodged by
BPS in this stage of the case were subsequently found
by the district court to have been “questionable” and
“contradictory.” China Shipping Container Lines Co. v.
Big Port Serv. DMCC, 2020 U.S. Dist. LEXIS 150137, at
*7 (S.D.N.Y. Aug. 19, 2020) (decision on CSCL’s application
for fees).)
On January 15, 2019, the district court issued its
opinion recognizing the decisions from Singapore. The
district court granted CSCL’s petition for declaratory
relief and permanently enjoined BPS from moving
forward with the New York arbitration. (App.10-33.) In
rendering its decision, the district court relied on wellestablished law on various topics such as subject matter
jurisdiction, venue, comity, collateral estoppel, and
res judicata. (App.15-32.) Among other rationale, the
district court relied on the doctrine of judicial estoppel
and held BPS to its prior representations to the court
that Singapore was the appropriate forum to determine
whether an arbitration agreement exists between the
parties, remarking that “permitting BPS’s ‘opportunistic,
last-minute about-face’ would unfairly advantage BSP and
impose an unfair detriment on CSCL.” (App.29.) (internal
citation omitted).

12
After granting the declaratory relief sought by CSCL
and finding the lack of any arbitration agreement between
the parties, the district court addressed the injunctive
relief sought by CSCL. The district court held that it would
“permanently enjoin[] the arbitration demanded by BPS
because there is no valid arbitration agreement between
these parties.” (App.29-32.)
4. Undeterred by the district court’s comprehensive
opinion, BPS appealed to the Second Circuit. Despite the
fact that a number of BPS’ arguments before the district
court contradicted established Second Circuit precedent,
BPS continued to advance such arguments on appeal. For
instance, BPS argued that subject matter jurisdiction
was lacking, a position the Second Circuit recognized was
“foreclosed by” its prior decision in Garanti Finansal
Kiralama A.S. v. Aqua Marine & Trading Inc., 697 F.3d
59 (2d Cir. 2012). (App.3-4.) The Second Circuit rightly
determined that subject matter jurisdiction existed in
this maritime dispute.
The Second Circuit went on to affirm the district
court’s holdings regarding recognition of the Singapore
judgments, preclusion, and estoppel. (App.3-8.) The
Second Circuit thus affirmed the district court’s
declaration that there is no arbitration agreement between
the parties. This holding and the legal theories on which
it is premised rested upon the straightforward application
of well-established, binding precedent. (App.3-8.)
The Second Circuit then went on to review the
district court’s decision to permanently enjoin BPS from
proceeding with the New York arbitration. Explaining
first that “[f]ederal courts generally have remedial power

13
to stay arbitration,” the court went on to note that “where
the court determines . . . that the parties have not entered
into a valid and binding arbitration agreement, the court
has the authority to enjoin the arbitration proceedings.”
(App.8.) (internal citations omitted). Because no contract
or arbitration agreement existed between the parties, the
permanent injunction was proper. (App.8.)
BPS has now petitioned this Court for certiorari.
REASONS FOR DENYING CERTIORARI
Far from violating the policy favoring arbitration, the
Second Circuit’s decision is consistent with established
legal precedent and the policy recognizing that arbitration
is a creature of contract. A party cannot foist arbitration
on another when there is no arbitration agreement
between them in the first place. In the absence of an
agreement between the parties, the Second Circuit’s
decision to affirm the district court’s grant of declaratory
and injunctive relief was appropriate. Neither the Second
Circuit nor the district court was required to send these
issues to arbitrators for decision. Further, there is no
circuit split in the context presented in this case. Cases
involving other types of disputes (e.g., the scope of an
existing arbitration agreement) are immaterial. Even
if there was such a relevant split among the circuits (of
which there is none), this case is not an appropriate vehicle
for resolution of that split. There is no scenario by which
BPS could ever drag CSCL into arbitration as there is
no contract or arbitration agreement binding CSCL to
arbitration with BPS.

14
I.

The Federal Policy in Favor of Arbitration is not
Implicated.

In the Petition, BPS invokes the federal policy in favor
of arbitration as a ploy to persuade the Court that the
Second Circuit’s decision contravenes important policy
goals to a level necessitating the Court’s intervention.
Specifically, BPS contends that certiorari should be
granted because the Second Circuit’s “broad rule favoring
the issuance of anti-arbitration injunctions…conflicts with
the strong federal policy in favor of arbitration.” (Pet. at
24). BPS decries that certiorari should be granted because
“[a]llowing anti-arbitration injunctions to issue as a matter
of course unduly frustrates the strong federal policy in
favor of arbitration.” (Pet. at 24.) However, nothing about
this case or the Second Circuit’s decision implicates the
federal policy in favor of arbitration, let alone conflicts
with or frustrates it.
This Court has made clear that “[a]rbitration under
the [Federal Arbitration] Act is a matter of consent, not
coercion.” Volt Info. Scis. v. Bd. of Trs., 489 U.S. 468, 479
(1989); see also EEOC v. Waffle House, Inc., 534 U.S. 279,
294 (2002). Put another way, the Act “simply requires
courts to enforce privately negotiated agreements to
arbitrate.” Volt, 489 U.S. at 478 (emphasis added); see
also Waffle House, 534 U.S. at 294 (explaining that the
FAA “does not require the parties to arbitrate when they
have not agreed to do so”). These pronouncements are
consistent with the oft-cited policy in favor of arbitration
embodied in the FAA, which this Court has clarified is “at
bottom a policy guaranteeing the enforcement of private
contractual agreements.” Mitsubishi Motors Corp. v.
Soler Chrysler-Plymouth, Inc., 473 U.S. 614, 625 (1985)
(emphasis added); see also Dean Witter Reynolds Inc.

15
v. Byrd, 470 U.S. 213, 220 (1985) (explaining that the
passage of the FAA “was motivated…by a congressional
desire to enforce agreements into which parties had
entered”); Stone v. Doerge, 328 F.3d 343, 345 (7th Cir.
2003) (Easterbrook, J.) (noting that “[t]here is no denying
that many decisions proclaim that federal policy favors
arbitration, but this differs from saying that courts read
contracts to foist arbitration on parties who have not
genuinely agreed to that device”).
This public policy is designed to enforce only
arbitration agreements, not arbitration wishes. As such,
the federal policy in favor of arbitration does not apply
in circumstances when, like here, the party resisting
arbitration is not a party to any arbitration agreement.
See Moses H. Cone Mem’l Hosp. v. Mercury Constr. Corp.,
460 U.S. 1, 24-25 (1983) (explaining that the federal policy
favoring arbitration applies only when resolving matters
“concerning the scope of arbitrable issues”); Monisoff
v. American Eagle Investments, Inc., 927 F. Supp. 137,
138 (S.D.N.Y.), aff’d, 104 F.3d 356 (2d Cir. 1996) (noting
the “federal arbitration policy…cannot create a contract
between non-contracting parties”); McCarthy v. Azure,
22 F.3d 351, 355 (1st Cir. 1994) (remarking “[t]he federal
policy . . . does not extend to situations in which the identity
of the parties who have agreed to arbitrate is unclear”).
The policy favoring arbitration applies when the
parties have agreed to arbitration but dispute the scope of
that agreement and whether a particular issue is referable
to arbitration.1 This scenario is not present in this case.
1. Even when the dispute concerns the scope of an arbitration
agreement, the court must “look first to whether the parties agreed
to arbitrate a dispute, not to general policy goals, to determine the
scope of the agreement.” Waffle House, 534 U.S. at 294.

16
This case involved a preliminary, more fundamental
question – whether there was an agreement to arbitrate
in the first place. As already explained by this Court,
“the proarbitration policy goals of the FAA” cannot work
to impose arbitration upon a nonparty to an arbitration
agreement because “it goes without saying that a contract
cannot bind a nonparty.” Waffle House, 534 U.S. at 294.
The federal policy in favor of arbitration does not apply
here. As such, one of the key pillars of BPS’ certiorari
Petition is fundamentally flawed. No policy exists in the
FAA or elsewhere favoring the imposition of arbitration
on parties that never agreed to arbitrate.
II. The Result BPS Seeks is Irrational, Illogical, and
Contravenes Supreme Court Precedent
The result advocated by BPS in its Petition is
irrational, illogical, and in contravention of established
Supreme Court precedent. The Petition is based upon the
fallacy that all cases involving the propriety of arbitration
are one in the same. This is not so. As this Court has
consistently recognized, there are a number of different
potential disputes that can arise concerning whether
arbitration is proper. For instance, there may be a dispute
over the scope of an existing arbitration agreement and
whether a particular substantive issue is arbitrable under
the terms of the parties’ agreement to arbitrate. See
AT&T Techs. v. Communs. Workers of Am., 475 U.S. 643
(1986). There may be a dispute concerning the arbitrator’s
ability to rule on a procedural matter such as whether a
particular claim is time-barred. See Howsam v. Dean
Witter Reynolds, 537 U.S. 79 (2002). Then, like here, there
may be a dispute about whether one party is bound to an
arbitration agreement.

17
BPS’ Petition must be viewed through this latter lens.
Case law addressing other types of arbitral disputes is
immaterial. The issue that was presented in this case was
whether BPS could be dragged into arbitration pursuant
to a non-existent contract and arbitration agreement.
Certiorari is inappropriate because if BPS obtains
the relief it seeks and the Second Circuit’s grant of a
permanent injunction is reversed, BSP still cannot foist
arbitration on CSCL.
The Second Circuit held as a matter of law that the
judgments from the Singapore Action are entitled to
preclusive effect and that CSCL is not a party to the
contract under which BPS contends CSCL should be
bound to arbitrate. (App.4-8.) These portions of the
Second Circuit’s decision would not be impacted by a
reversal of the decision to grant an injunction. As such,
the relief sought in the Petition, i.e., a reversal of the
injunctive aspects of the Second Circuit’s decision, has
no bearing on the ultimate outcome. The declaration
that no contract exists between the parties still stands.
As such, entertaining BPS’ Petition would result in
an impermissible advisory opinion. As this Court has
remarked on numerous occasions, “the oldest and most
consistent thread in the federal law of justiciability is
that the federal courts will not give advisory opinions.”
Flast v. Cohen, 392 U.S. 83, 96 (1968); see also Mistretta
v. United States, 488 U.S. 361, 385 (1989) (explaining that
the Supreme Court has consistently “refused to issue
advisory opinions”). There is no need for this Court to
issue a decision as to the standard federal courts should
use in determining whether to enjoin arbitration in a case
where it has already been determined as a matter of law
that the parties are not bound to an arbitration agreement.

18
In addition, the contention – that the Second Circuit’s
decision conflicts with the federal policy in favor of
arbitration because had the district court allowed the
arbitration to proceed, “the dispute would have been
adjudicated by a group of arbitrators having expertise in
the area of international maritime disputes” – is irrational
and conflicts with established precedent. (Pet. at 25.)
On this point, BPS alleges that the arbitrators “would
have been in an especially good position to analyze the
factual details necessary to a determination of whether
the Singapore proceedings resulted in a final decision
(as CSCL has argued and the district court has held) or
merely an interlocutory decision (as BPS maintains).” Id.
In other words, BPS asserts that the federal policy in favor
of arbitration should have required the district court to
demur, force CSCL into an arbitration to which it never
agreed, and bestow on a panel of arbitrators for decision
the legal issues that were placed before the district court.
The suggestion is absurd.
This Court has explicitly held that courts, not
arbitrators, must decide whether parties agreed to
arbitrate “[u]nless the parties clearly and unmistakably
provide otherwise.” AT&T Techs. v. Communs. Workers
of Am., 475 U.S. 643, 649 (1986). As they must, all circuits
follow AT&T and hold that the question of whether the
parties agreed to arbitrate must be resolved by the court
absent unmistakable proof that the parties intended the
issue to be resolved by the arbitrators. See Painewebber
Inc. v. Elahi, 87 F.3d 589, 595 (1st Cir. 1996); U. S. Titan,
Inc. v. Guangzhou Zhen Hua Shipping Co., Ltd., 241
F.3d 135, 146 (2d Cir. 2001); Bogen Communs., Inc. v.
Tri-Signal Integration, Inc., 227 F. App’x 159, 161 (3d
Cir. 2007); Cathcart Props. v. Terradon Corp., 364 F.

19
App’x 17, 18 (4th Cir. 2010); Hous. Ref., L.P. v. United
Steel, Paper & Forestry, Rubber, Mfg., Energy, Allied
Indus. & Serv. Workers Int’l Union, 765 F.3d 396, 408
(5th Cir. 2014); Vic Wertz Distrib. Co. v. Teamsters Local
1038, Nat’l Conference of Brewery & Soft Drink Workers,
898 F.2d 1136, 1140 (6th Cir. 1990); Brock Indus. Servs.,
LLC v. Laborers’ Int’l Union of N. Am. Constr. & Gen.
Laborers Local 100, 920 F.3d 513, 516 (7th Cir. 2019);
Silgan Containers Corp. v. Sheet Metal Workers Int’l
Ass’n, Local Union No. 2, 820 F.3d 366, 369 (8th Cir.
2016); Sheet Metal Workers Int’l Asso., Local No. 359 v.
Ariz. Mech. & Stainless, Inc., 863 F.2d 647, 651 (9th Cir.
1988); Riley Mfg. Co. v. Anchor Glass Container Corp.,
157 F.3d 775, 779 (10th Cir. 1998); JPay, Inc. v. Kobel, 904
F.3d 923, 930 (11th Cir. 2018); KenAmerican Res. v. Int’l
Union, UMW, 99 F.3d 1161, 1163 (D.C. Cir. 1996).
In the face of this long-standing precedent, BPS’
arguments to this Court are strange, albeit not entirely
surprising given the questionable nature of many of the
arguments that BPS has advanced throughout these
proceedings. Big Port, 2020 U.S. Dist. LEXIS 150137, at *7
(the district court explaining that BPS “took questionable
and, at times, contradictory positions over the course of
this litigation”). The suggestion that the federal policy
in favor of arbitration would require the district court
to refrain from acting and have arbitrators decide the
impact of the Singapore judgments and the inextricably
intertwined issue of whether CSCL was bound to arbitrate
is simply wrong. Equally, the procedure that BPS contends
should have been used by the district court (i.e., referring
the case to arbitrators) contravenes established law from
this Court, as it would permit the arbitrators to decide
the issue of whether CSCL was required to arbitrate

20
when there was no evidence the parties agreed to submit
that issue to the arbitrators. AT&T, 475 U.S. at 649. BPS’
misguided appeal to policy considerations cannot override
established Supreme Court precedent.
BPS’ argument also portends a procedure whereby
an entity which believes it is not a party to an arbitration
agreement has two choices: (1) it can fail to participate
in the arbitration and run the risk that the other party
proceeds full steam ahead with the consent of the
arbitrators (which is what was happening here) or (2) it
can take part in the arbitration and then move to vacate
any adverse award once the arbitration is concluded. (Pet.
at 27-28.) Neither of these options is supported under
the law or compelled by the policy favoring arbitration.
Under BPS’ logic, in such a situation the party resisting
arbitration would effectively be powerless, as the only
relief available would be to conduct the arbitration and
then move to vacate. This is nonsense.
First, this result advocated by BPS contravenes the
Court’s dictate that “[a]rbitration…is a matter of consent,
not coercion.” Waffle House, 534 U.S. at 294. To drag a
party into an arbitration proceeding against its will with
no recourse other than to wait it out until the arbitration
is complete is the very definition of coercion. A result that
clearly conflicts with established precedent cannot stand.
Second, the suggestion that an entity such as CSCL
would have recourse at the conclusion of the improperlycommenced and progressed arbitration through a
petition to vacate under the FAA is also plainly without
merit. Section 10 of the FAA sets forth the grounds for
the “limited review” available to obtain vacatur of an

21
arbitration award. Hall St. Assocs., L.L.C. v. Mattel,
Inc., 552 U.S. 576, 588 (2008); see also 9 U.S.C. § 10. If
one of the limited grounds for vacatur under section 10
is unavailable, the reviewing court “must” confirm the
award. 9 U.S.C. § 9; see also Hall Street, 552 U.S. at 587.
There is no principle of law or reason which requires a
party to participate in an arbitration to which it never
agreed and then to hope that the limited bases for vacatur
will prevail once the matter is concluded. Neither the
FAA nor any precedent requires such a procedure. The
reason for this absence is simple – arbitration is a matter
of contract, and “the FAA does not require parties to
arbitrate when they have not agreed to do so.” Volt, 489
U.S. at 478. BPS’ suggestion that a petition to vacate under
section 10 of the Act is the proper vehicle for resolving a
dispute over whether a party is bound by an arbitration
agreement is simply illogical.
The unavoidable conclusion is that the district court
was not required to force CSCL to participate in BPS’
ill-founded arbitration proceedings and to litigate any
issue, much less the issues relative to the existence or nonexistence of an arbitration agreement. The district court
acted in accord with established precedent which leaves
for courts, not arbitrators, the resolution of the gateway
question of whether a party is bound to arbitration.
The district court did not violate any public policy when
it acted. No principle of law or policy supports BPS’
suggestion that the district court should have refrained.
III. BPS’ Assertions of a Circuit Split are a Pretext.
The main theme of BPS’ Petition is that a circuit split
supposedly exists regarding “the circumstances under

22
which a court is permitted to issue an anti-arbitration
injunction.” (Pet. at 11). In an effort to manufacture a
perceived circuit split, BPS points to a variety of circuit
court decisions concerning different circumstances when
a court was asked to enjoin arbitration. Placing all of these
decisions under the same overly-broad umbrella, BPS
contends that a circuit split exists on the power of courts
to issue anti-arbitration injunctions. This contention is
incorrect on a number of levels.
Before examining BPS’ claims of a circuit split, it is
important to briefly recall the specific factual scenario
in this case giving rise to the district court’s grant of a
permanent injunction. The injunction was issued because
the district court found that CSCL was not a party to any
arbitration agreement with BPS and as such could not be
compelled to arbitrate. (App.8.) Crucially, this case does
not involve a factual situation in which BPS and CSCL
were undeniably parties to an arbitration agreement
but disputed whether certain claims were arbitrable
pursuant to such agreement or whether certain claims
were previously settled. In the context of this case, the
court examined a simple question – was an injunction
appropriate to prevent BPS from proceeding with
arbitration against CSCL when CSCL was not bound to
any arbitration agreement with BPS. Again, BPS’ cries
of a circuit split should be examined in this context.
The purported circuit split revolves around BPS’
contention that a handful of circuits have supposedly
issued injunctions against arbitration by referencing
the All Writs Act, whereas a handful of other circuits
have held that federal courts have the power to issue
injunctions against arbitration without resorting to the

23
All Writs Act. A cursory review of the cases cited by BPS
as support for this concocted circuit split reveals that
only one circuit court, the Eleventh Circuit, has arguably
held that an injunction against arbitration may only be
granted when the requirements of the All Writs Act have
been met. That decision was issued in a context which is
utterly distinguishable from the present case. As such, if
the Eleventh Circuit case presented a split of authority
(which it does not), the split is utterly immaterial to the
present case.
In Klay v. United Healthgroup, Inc., 376 F.3d
1092 (11th Cir. 2004), the Eleventh Circuit examined
whether the district court was “empowered to enjoin
arbitration of [the plaintiff’s] nonarbitrable claims under
the All Writs Act.” Klay, 376 F.3d at 1113. The parties in
Klay had an arbitration agreement between them; the
dispute concerned whether certain claims were subject
to that process or not. Noting that arbitration of the
non-arbitrable claims would ultimately be a “pointless,
fruitless exercise,” the court went on to hold that the
district court erred utilizing the All Writs Act to enjoin
the arbitration. Id. at 1112-13. Pertinently, the court
stressed that an injunction under the All Writs Act was
unavailable because “[i]t is precisely because arbitrating
nonarbitrable claims is such a pointless endeavor that it
does not threaten or undermine either the district court’s
existing order or its jurisdiction over the pending cases.”
Id. at 1113.
Tellingly, Klay did not involve a situation, like the
one in this case, in which the parties disputed whether
a binding arbitration agreement existed between them.
This is a crucial distinction completely ignored by BPS.
When a dispute centers on the existence or non-existence

24
of an arbitration agreement (as opposed to the scope of
an undeniably existent agreement), the courts routinely
grant injunctive relief without resort to the All Writs
Act. Indeed, prior to deciding Klay, the Eleventh Circuit
in Hull v. Norcom, Inc., 750 F.2d 1547, 1550 (11th Cir.
1985), affirmed the district court’s decision to enjoin an
arbitration when no valid arbitration agreement existed
between the parties. The Eleventh Circuit’s decision in
Hull makes no reference to the All Writs Act, nor does
the later decision in Klay suggest that this aspect of Hull
is no longer good law. Hull is the more relevant Eleventh
Circuit authority here given the context of this case.
Moreover, none of the other circuit court opinions
cited by BPS actually holds that the All Writs Act is
the sole ground available for enjoining arbitration. For
instance, the Eighth Circuit in Ewart v. Y & A Grp. (In
re Y & A Grp. Sec. Litig.), 38 F.3d 380 (8th Cir. 1994),
examined whether the district court had authority to
enjoin arbitration of a dispute between an investor plaintiff
and securities broker defendant. The court did casually
remark that the investor’s argument-- that the district
court did not have the power to enjoin the arbitration
-- was “superficially appealing.” Id. at 382. However, the
court recognized that “courts have the power to defend
their judgments as res judicata, including the power to
enjoin or stay subsequent arbitrations.” Id. This principle
was “dispositive of the issue of the district court’s power.”
Id. The Eighth Circuit then went on to note, in dicta, that
“further indirect support for that [injunctive] power”
exists in the All Writs Act. Id. at 382-83. The case does not
stand for the proposition that the All Writs Act is the sole
basis of authority for a district court to enjoin arbitration,
particularly when there is no arbitration agreement.

25
Likewise, the Ninth Circuit’s unpublished decision in
Hartley v. Stamford Towers Ltd. P’ship, No. 92-16802, No.
92-56528, 1994 U.S. App. LEXIS 23543 (9th Cir. Aug. 26,
1994), also does not stand for the proposition alleged by
BPS. In Hartley, the Ninth Circuit held that the broad
grant of injunctive authority in the All Writs Act “includes
jurisdiction to enforce a class action judgment.” Hartley,
1994 U.S. App. Lexis 23543 at *12. While the court in
Hartley happened to use that authority to enjoin an
arbitration which threatened to conflict with a class action
judgment, it did not hold, as erroneously suggested by
BPS, that the sole power to enjoin any arbitration comes
from the All Writs Act.
BPS also points to the Seventh Circuit’s decision in
AT&T Broadband, LLC. v. Int’l Broth. of Elec. Workers,
317 F.3d 758 (7th Cir. 2003), for the proposition that “[t]
he Seventh Circuit has held that an anti-arbitration
injunction is proper only if traditional principles of equity
are satisfied.” (Pet. 17). BPS’ reliance on the Seventh
Circuit’s decision in Broadband is odd given that the very
first sentence of the court’s opinion states that the case
involves “the question whether the Norris-LaGuardia Act,
29 U.S.C. §§ 101-15, forbids a district court to enjoin the
arbitration of a labor dispute.” Broadband, 317 F.3d at 759.
The Seventh Circuit held that it would “join the four other
circuits [the First, Third, Ninth, and D.C. Circuits] that
have understood the Norris-LaGuardia Act to preclude
injunctive relief against the arbitration of a labor dispute.”
Id. at 763. Of course, the Norris-LaGuardia Act has no
application here whatsoever, and therefore BPS’ reliance
on Broadband to try and create a circuit split is utterly
misguided. 2
2. It is also ironic that BPS uses Broadband to attempt to
manufacture a circuit split when the opinion is consistent with the

26
Lastly, the circuit courts which BPS contends “have
found that courts have a broad power to issue injunctions
against arbitration” acted in accord with precedent from
this Court. (Pet. at 18.) For instance, the Second Circuit
in Beland relied upon this Court’s statement in Volt that
“[a]rbitration under the [FAA] is a matter of consent, not
coercion” when holding that “[i]f the parties to this appeal
have not consented to arbitrate a claim, the district court
was not powerless to prevent one party from foisting upon
the other an arbitration process to which the first party
had no contractual right.” Anderson v. Beland (In re Am.
Express Fin. Advisors Sec. Litig.), 672 F.3d 113, 141 (2d
Cir. 2011).
The Second Circuit in Beland also relied upon the First
Circuit’s decision in Societe Generale de Surveillance,
S.A. v. Raytheon European Mgmt. & Sys. Co., 643 F.2d
863 (1st Cir. 1981), and the Third Circuit’s decision in
PaineWebber Inc. v. Hartmann, 921 F.2d 507 (3d Cir.
1990), both of which are in accord. In Societe Generale,
the First Circuit, faced with the issue of whether a valid
arbitration agreement existed between the parties,
held that “to enjoin a party from arbitrating where an
agreement to arbitrate is absent is the concomitant of the
power to compel arbitration where it is present.” Societe
Generale de Surveillance, S.A. v. Raytheon European
rulings from all other circuits (including the Eleventh Circuit)
that have addressed the precise issue addressed in Broadband,
i.e., whether the Norris-LaGuardia Act prevents the court from
enjoining a labor dispute. Id. at 763; Triangle Constr. & Maint.
Corp. v. Our V.I. Labor Union, 425 F.3d 938 (11th Cir. 2005)
(proclaiming “[w]e agree with our sister circuits” in holding that
the Norris-LaGuardia Act bars the court from enjoining any
labor dispute).

27
Mgmt. & Sys. Co., 643 F.2d 863, 868 (1st Cir. 1981).
Similarly, the Third Circuit in PaineWebber held that “[i]f
a court determines that a valid arbitration agreement does
not exist or that the matter at issue clearly falls outside
of the substantive scope of the agreement, it is obliged to
enjoin arbitration.” PaineWebber, 921 F.2d at 511. 3
Boiled down to the basics, BPS’ argument is that there
exists a circuit split based exclusively upon the Eleventh
Circuit’s decision in Klay. Klay does not however involve
the circumstances present in this case, i.e., a non-existent
contract and arbitration agreement. Tellingly, BPS cannot
point to a single decision from any circuit which held that a
district court is powerless to enjoin arbitration when there
is no valid arbitration agreement between the parties. Nor
for that matter has BPS pointed to a single circuit court
decision in which the court held that a district court may
enjoin arbitration in the absence of a valid arbitration
agreement between the parties only if the court believes
an injunction is warranted under the All Writs Act. In
spite of BPS’ attempt to paint with such a broad brush,
it is clear that no circuit split exists. There is nothing for
this Court to resolve in the context of this case.

3. BPS also points to the Fifth Circuit’s decision in Miller
Brewing Co. v. Fort Worth Distrib. Co., 781 F.2d 494 (5th Cir.
1986), as support for the assertion that “[t]he Fifth Circuit…has
adopted a broad view of courts’ power to issue anti-arbitration
injunctions.” (Pet. at 21-22.) In Miller, the Fifth Circuit simply
granted an injunction after finding that a party waived the right to
arbitration and in any event that the claims sought to be asserted in
the arbitration were barred by res judicata. Miller, 781 F.2d at 501.

28
IV. The Decision Below is Correct.
Finally, review is not warranted because the decision
below is plainly correct. Trying to force a party into
arbitration is not a matter of right. Arbitration is a
creature of contract. Established precedent from each
and every one of the circuit courts bestows district courts,
not arbitrators, with the power to determine whether an
entity is a party to an arbitration agreement.
The Second Circuit’s decision that the injunction was
proper because CSCL was not a party to any arbitration
agreement with BPS (App.8) falls squarely in line with
this Court’s mandate that “[a]rbitration under the Act is a
matter of consent, not coercion.” Volt, 489 U.S. at 479. BPS’
contentions and the result it advocates fly in the face of this
established precedent. See discussion supra at section II.
There is just no need for this Court to consider whether the
All Writs Act may permit an injunction against arbitration
where, as here, there is no arbitration agreement between
the parties. The Second Circuit’s finding that there was
no agreement to arbitrate between BPS and CSCL was
the end of the game. Having this Court examine whether
resort to the All Writs Act was required would be nothing
more than unnecessary overtime.
It also bears repeating that BPS was the one which
advocated before the district court that the existence of
the arbitration agreement should be litigated in Singapore.
BPS litigated that issue extensively in Singapore and
through multiple levels of appeal. It lost. When BPS tried
to reverse field, the district court closely examined the
record and declared the lack of an arbitration agreement
between the parties. There is thus nothing to send to

29
arbitrators. Yet, due to BPS’ evident failure to abide
by judicial results and its continued efforts to advance
an arbitration proceeding which was ill-conceived and
initiated, an injunction was necessary. The district court
acted appropriately when it enjoined BPS from foisting
arbitration on CSCL. The Second Circuit affirmed the
district court in all respects. There was nothing erroneous
about that decision. The decision was in accord with this
Court’s precedent and all circuit authority addressing the
authority to enjoin a party from continuing with arbitration
when there is no agreement to arbitrate otherwise. Any
other ruling would turn established precedent on its head.
CSCL was not and is not required to arbitrate anything
with BPS.
CONCLUSION
The petition for a writ of certiorari should be denied
for the foregoing reasons.
			Respectfully submitted,
Gina M. Venezia
Counsel of Record
Michael J. Dehart
Freehill Hogan & Mahar, LLP
80 Pine St.
New York, NY 10005
(212) 425-1900
venezia@freehill.com
Counsel for Respondent
October 8, 2020

